Department of Health and Human Services

              OFFICE OF 

         INSPECTOR GENERAL 





  STATES’ COLLECTION OF 

  REBATES FOR DRUGS PAID 

    THROUGH MEDICAID 

      MANAGED CARE 

     ORGANIZATIONS





                    Daniel R. Levinson

                     Inspector General


                     September 2012 

                     OEI-03-11-00480 

EXECUTIVE SUMMARY: STATES’ COLLECTION OF REBATES FOR
DRUGS PAID THROUGH MEDICAID MANAGED CARE ORGANIZATIONS
OEI-03-11-00480

WHY WE DID THIS STUDY

In general, drug manufacturers must pay rebates for covered outpatient drugs reimbursed
under Medicaid for States to receive Federal matching funds. Drugs dispensed by
Medicaid Managed Care Organizations (MCO) were excluded from this requirement
until March 23, 2010, when section 2501(c) of the Patient Protection and Affordable Care
Act (ACA) expanded the rebate requirement to include these drugs. To realize the full
savings under this expansion, it is important that States collect accurate drug utilization
data from MCOs and that States invoice and collect rebate payments from manufacturers.  

HOW WE DID THIS STUDY

In October 2011, we sent surveys about rebate collections involving MCOs to all
50 States and the District of Columbia (hereinafter referred to as States) and received
responses from all but 1 State. States that paid for drugs through their MCOs
(the carve-in approach) were asked about the drug utilization data collected from MCOs,
their processes for invoicing and collecting rebates from manufacturers using these data,
and the amounts of rebates collected between the second quarter of 2010 and the second
quarter of 2011. We asked States that did not pay for drugs through their MCOs (the
carve-out approach) or did not contract with MCOs about potential changes to their drug
programs’ structures as a result of the rebate expansion.

WHAT WE FOUND

Between April 1, 2010, and June 30, 2011, 18 of the 22 States using a carve-in approach
collected all the data needed to invoice manufacturers for rebates from their MCOs,
3 collected data from a portion of their MCOs, and 1 never collected any drug utilization
data. All but one State that used a carve-in approach performed some type of data
verification check. Twelve of the twenty-two States using a carve-in approach invoiced
manufacturers and collected $1.6 billion in rebates for utilization in the second quarter of
2010 through the second quarter of 2011. However, 10 of the 22 States did not invoice
manufacturers and collect rebates because, for example, they had to complete
programming changes to the systems that process MCO claims. Additionally, the rebate
expansion has prompted five States that used the carve-out approach to change to a
carve-in approach.

WHAT WE RECOMMEND

We recommend that the Centers for Medicare & Medicaid Services (CMS) follow up
with the 10 States that had not collected rebates for drugs dispensed to Medicaid MCO
beneficiaries and take action to enforce rebate collection if necessary. CMS concurred.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................6 

Findings......................................................................................................11

           Eighteen of the twenty-two States using the carve-in approach 

           obtained the Medicaid MCO utilization data needed to collect 

           rebates in all of the quarters under review .....................................11

           In the five quarters after the rebate expansion, 12 of the 22 

           States using the carve-in approach invoiced manufacturers and 

           collected $1.6 billion in rebates for Medicaid MCO drug 

           utilization .......................................................................................14 

           As of October 1, 2011, 10 of the 22 States using a carve-in 

           approach had not invoiced manufacturers and collected rebates 

           for Medicaid MCO drug utilization ...............................................16 

           Five States that did not pay for drugs through Medicaid                             

           MCOs changed the structures of their drug programs as a result                              

           of the rebate expansion ..................................................................17 

Conclusion and Recommendation .............................................................18 

           Agency Comments and Office of Inspector General Response.....20 

Appendixes ................................................................................................21 

           A: Percentage of Medicaid Managed Care Organizations That 

           Provided Drug Utilization Data to States for the Second Quarter 

           of 2011 ...........................................................................................21 

           B: Total Amount of Medicaid Managed Care Organization 

           Rebates That 12 States Using a Carve-In Approach Collected 

           From Second Quarter 2010 to Second Quarter 2011 .....................22 

           C: Ten States Using a Carve-In Approach That Had Not 

           Invoiced or Collected Medicaid Managed Care Organization 

           Rebates as of October 1, 2011 .......................................................23 

           D: Agency Comments ...................................................................24 

Acknowledgments......................................................................................26 

                  OBJECTIVES
                  1.	 To determine whether State Medicaid agencies (States) have collected
                      drug utilization data from Medicaid Managed Care Organizations
                      (MCO), as required by the Patient Protection and Affordable Care Act
                      (ACA).
                  2.	 To examine the processes States used to invoice and collect rebates
                      from manufacturers for drugs dispensed to beneficiaries enrolled in
                      MCOs.
                  3.	 To determine how many States invoiced manufacturers for rebates for
                      drugs dispensed to MCO beneficiaries.
                  4.	 To calculate the amount States collected in rebates from manufacturers
                      for drugs dispensed to MCO beneficiaries, as well as how much went
                      uncollected.
                  5.	 To determine whether States that do not currently pay for drugs
                      through MCOs will change the structures of their drug programs as a
                      result of the new rebate requirements.

                  BACKGROUND
                  In general, drug manufacturers must pay rebates for covered outpatient
                  drugs reimbursed under Medicaid for a State to receive Federal matching
                  funds.1 However, until the March 23, 2010, enactment of the ACA, P.L.
                  111-148, drugs dispensed by Medicaid MCOs were excluded from the
                  rebate requirements.2 Section 2501(c) of the ACA expanded the rebate
                  requirements to include drugs dispensed to beneficiaries who receive care
                  from MCOs if the organizations are responsible for coverage of such
                  drugs, effective March 23, 2010. To facilitate rebate collection, States
                  must include the utilization data collected from MCOs in their rebate
                  invoices to manufacturers.3 The Congressional Budget Office (CBO)
                  estimated that this provision will result in savings of $3.7 billion between
                  2010 and 2014.4
                  To realize these potential savings under the ACA, it is important that
                  States collect accurate and timely drug utilization data from MCOs,
                  implement procedures to invoice manufacturers, and collect these rebates.
                  If States do not invoice promptly following the rebate expansion, they still

                  1
                    Social Security Act (the Act), § 1903(i)(10)(A), 42 U.S.C. § 1396b(i)(10)(A).
                  2
                    The Act, § 1927(j), 42 U.S.C. § 1396r-8(j) (2009 GPO FDsys).
                  3
                    Section 2501(c) of the ACA.
                  4
                    CBO, Budget Options Volume 1 Health Care, December 2008, pp. 141–142. Accessed at
                  http://www.cbo.gov on April 19, 2011.

Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                            1
                  have the opportunity to retroactively invoice manufacturers and collect
                  rebates for utilization dating back to March 23, 2010. However, prior
                  Office of Inspector General (OIG) reports have found that States have not
                  collected all non-MCO rebates owed by manufacturers because of various
                  procedural issues and manufacturer disputes.5
                  Medicaid Prescription Drug Coverage
                  Medicaid provides health coverage for certain low-income and medically
                  needy people, jointly funded by Federal and State governments.
                  Individual States establish eligibility requirements, benefit packages, and
                  payment rates for their Medicaid programs under broad Federal standards.
                  Currently, all 50 States and the District of Columbia (referred to as States)
                  offer prescription drug coverage as part of their Medicaid benefit
                  packages. Medicaid expenditures for prescription drugs totaled
                  approximately $29 billion in 2010.6
                  Medicaid Drug Rebate Program
                  To reduce State and Federal expenditures for prescription drugs, Congress
                  created the Medicaid drug rebate program in 1990.7 Between 2006 and
                  2010, the rebate program has saved Medicaid an average of about
                  $9 billion annually.
                  Drug manufacturers are required to enter into rebate agreements with the
                  Secretary of Health and Human Services (the Secretary) and pay quarterly
                  rebates to States for Federal payment to be available for covered
                  outpatient drugs provided under Medicaid.8, 9 As of December 2011, the
                  States and approximately 600 pharmaceutical companies participated in
                  the rebate program.10
                  Under these rebate agreements and pursuant to section 1927(b)(3) of the
                  Act, manufacturers must provide CMS with the average manufacturer
                  price (AMP) by national drug code (NDC) for each of their covered


                  5
                    OIG, States’ Collection of Medicaid Rebates for Physician-Administered Drugs (OEI-03-09-
                  00410), June 2011; Medicaid Rebates for Physician-Administered Drugs (OEI-03-02-00660), 

                  April 2004; and Multistate Review of Medicaid Drug Rebate Programs (A-06-03-00048), July

                  2005.

                  6
                    Medicaid expenditures were calculated using data from the Centers for Medicare & 

                  Medicaid Services’ (CMS) Medicaid Budget and Expenditures System. This total does not 

                  reflect rebates collected through the Medicaid drug rebate program.

                  7
                    The Omnibus Budget Reconciliation Act of 1990, P.L. 101-508, § 4401; the Act, § 1927; 

                  42 U.S.C. § 1396r-8. 

                  8
                    The Act, §§ 1927(a)(1) and (b)(1).

                  9
                    Federal payment refers to the matching funds provided to States by the Federal Government 

                  for certain social services, including Medicaid.

                  10
                     CMS, Medicaid & CHIP Program Information. Accessed at http://www.medicaid.gov/ on 

                  February 15, 2012.


Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                                 2
                  drugs.11, 12 AMP is defined as the average price paid to a manufacturer of
                  a drug in the United States by a wholesaler for drugs distributed to retail
                  community pharmacies and by retail community pharmacies that purchase
                  drugs directly from the manufacturer, with certain exclusions.13
                  Manufacturers must report the AMPs no later than 30 days after the end of
                  each quarter.14
                  Medicaid Drug Rebate Process
                  CMS uses the AMP and best price data to calculate the unit rebate amount
                  (URA) for each NDC included in the Medicaid drug rebate program. The
                  URA varies depending on whether the drug is brand-name or generic.
                  CMS calculates a URA for each NDC and transmits this information to the
                  States. States then calculate the total quarterly rebates that participating
                  manufacturers owe by multiplying the URA for a specific drug by the
                  number of units of that drug for which the State reimbursed providers in
                  that quarter. Within 60 days of the end of the quarter, States must invoice
                  the manufacturers for the units reimbursed and indicate the total rebate
                  due for each NDC. The manufacturers process the invoices and pay the
                  rebates to the States within 30 days of receipt of the invoices.15, 16
                  Effective January 1, 2010, section 2501 of the ACA revised the rebate
                  calculation and increased the minimum rebate percentage manufacturers
                  are required to pay for brand-name and generic drugs. The basic URA for
                  brand-name drugs was increased to the greater of 23.1 percent of the AMP
                  or the difference between the AMP and the best price.17, 18 In addition to
                  the basic URA, manufacturers are required to pay an additional rebate if




                  11
                     Section 1927(b)(3) of the Act requires manufacturers provide CMS, in addition to the 

                  AMP, with the best price available for each of their brand-name drugs. “Best price” is defined 

                  in § 1927(c)(1)(C)(i) of the Act as the lowest price available from the manufacturer during the 

                  rebate period to any purchaser in the United States, with certain exceptions.

                  12
                     An NDC is an 11-digit identifier that represents a specific manufacturer, product, and 

                  package size for a drug.

                  13
                     Section 1927(k)(1) of the Act as amended by § 2503(a)(2) of the ACA. 

                  14
                     Section 1927(b)(3) of the Act. Manufacturers also report AMPs on a monthly basis; 

                  however, only the quarterly AMPs are used for rebate purposes. 

                  15
                     Section 1927(b)(1)(A) of the Act.

                  16
                     If the manufacturer does not pay the invoice within 30 days, interest will accrue beginning 

                  with the 38th day from the invoice’s postmark date. CMS, Medicaid & CHIP Program

                  Information. Accessed at http://www.medicaid.gov/ on February 15, 2012.

                  17
                     Section 1927(c)(1) of the Act as amended by § 2501(a) of the ACA.

                  18
                     From 1996 to 2009, the basic URA for a brand-name drug was either 15.1 percent of the 

                  AMP or the difference between the AMP and best price (whichever was greater).


Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                                    3
                  the AMP for a brand-name drug has risen at a rate greater than inflation.19 
                  The URA for generic drugs was increased to 13 percent of the AMP.20, 21
                  The ACA also requires that the additional amounts attributed to these
                  increased rebate percentages (e.g., the amount between 15.1 and
                  23.1 percent of AMP for brand-name drugs) be remitted to the Federal
                  Government. Therefore, States are prohibited from keeping the additional
                  money that results from the ACA changes to the rebate calculation.
                  Because of changes to the definition of AMP, rebate percentages, and
                  Federal share rules under the ACA, CMS was not able to modify its
                  systems to calculate URAs during 2010. As a result, the States’ invoices
                  to manufacturers included the number of units reimbursed for the drugs
                  but did not contain URAs.22 Instead, CMS reminded manufacturers to
                  calculate the URAs and make the appropriate 2010 quarterly rebate
                  payments directly to States in accordance with the rebate changes for that
                  year.23 In May 2011, CMS calculated URAs for each quarter of 2010 and
                  provided those data to States as a prior period adjustment.
                  Medicaid MCOs and Drug Rebates—Carve-In and Carve-Out
                  Approaches
                  Managed care plans aim to maximize efficiency by negotiating rates,
                  coordinating care, and managing the use of services. MCOs differ from
                  the traditional fee-for-service (FFS) system in that States prospectively
                  pay MCOs a fixed monthly amount (i.e., capitation payment) for each
                  Medicaid enrollee, regardless of whether that beneficiary seeks care
                  during the month. A State may provide its Medicaid beneficiaries with the
                  option to voluntarily enroll in MCOs or may mandate that all or certain
                  categories of its Medicaid beneficiaries enroll in MCOs.24
                  States may pay for drugs dispensed through MCOs using either the
                  carve-in or the carve-out approach. To use the carve-in approach, States
                  include payment for the drugs dispensed to beneficiaries in the MCOs’


                  19
                     Section 1927(c)(2) of the Act. To determine whether manufacturers owe an additional 

                  rebate for a drug, its “base date” AMP is updated for the current quarter using the consumer 

                  price index. If the resulting figure is greater than or equal to the reported AMP in the quarter, 

                  no additional rebate is owed. If the resulting figure is less than the reported AMP in the 

                  quarter, then the additional URA is equal to the difference between the reported AMP and the 

                  inflation-adjusted base date AMP. 

                  20
                     Section 1927(c)(3) of the Act as amended by § 2501(b) of the ACA.

                  21
                     From 1996 to 2009, the basic URA for a generic drug was 11 percent of the AMP.

                  22
                     CMS instructed States to report each URA as $0 on the rebate invoice. 

                  23
                     CMS, Medicaid Drug Rebate Program Release No. 155, August 11, 2010.

                  24
                     Section 1903(m)(1)(A) of the Act defines a “Medicaid MCO” as a health maintenance 

                  organization that contracts with a State Medicaid agency to provide or arrange for health 

                  services to eligible individuals.


Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                                       4
                  fixed monthly payment amounts. In the carve-out approach, States
                  exclude payment for the drugs dispensed to beneficiaries from the MCOs’
                  fixed monthly payment amounts and instead pay for these drugs using the
                  traditional FFS system.
                  MCO Rebate Collections Prior to March 23, 2010. Before the
                  enactment of the ACA, manufacturers were not required to pay rebates for
                  drugs dispensed to beneficiaries by Medicaid MCOs. For that reason, a
                  number of States carved out some or all prescription drugs from the
                  Medicaid MCOs’ fixed payments. In other words, beneficiaries would
                  receive most of their care through MCOs, but the State instead paid for
                  drugs dispensed through MCOs on an FFS basis. Carving out prescription
                  drugs from the MCOs’ fixed payment amounts enabled these States to
                  invoice manufacturers for rebates for these drugs before the ACA was
                  enacted.
                  MCO Rebate Collections on or After March 23, 2010. As of
                  March 23, 2010, section 2501(c) of the ACA expanded the rebate
                  requirements to include prescription drugs provided to Medicaid
                  beneficiaries enrolled in MCOs.25 To facilitate the States’ collection of
                  these rebates from manufacturers, MCOs are required to report utilization
                  data to each State by NDC for each covered outpatient drug dispensed to
                  Medicaid enrollees. In April and September 2010, CMS sent letters to
                  States that provided guidance about the changes to the rebate program
                  under the ACA, including the new MCO provisions.26
                  States are to include MCO utilization data in their quarterly rebate
                  invoices to manufacturers. As previously mentioned, because CMS did
                  not calculate URAs in 2010, States were unable to invoice manufacturers
                  using the established process in that year. Instead, States provided
                  manufacturers with the utilization data collected from MCOs and
                  instructed manufacturers to calculate the rebate amounts and remit the
                  amounts owed each quarter.
                  The rebate expansion does not directly affect States that do not include
                  prescription drugs in their MCOs’ payment rates (i.e., the carve-out
                  approach) or that do not contract with MCOs. However, industry reports
                  indicate that the ACA expansion may prompt these States to contract with


                  25
                     Section 340B of the Public Health Service Act established the 340B Drug Pricing Program,
                  which requires pharmaceutical manufacturers to charge at or below the statutorily defined
                  prices for sales to certain qualified entities (e.g., community health centers). Drug purchases
                  by MCOs that qualify for discounted 340B rates are not subject to the Medicaid rebate
                  because this would result in duplicate discounts from manufacturers.
                  26
                     CMS, Letter to State Medicaid Directors, SMDL #10-006 and SMDL #10-019. Accessed at
                  http://www.cms.gov/ on August 8, 2011.

Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                                    5
                  MCOs using a carve-in approach. According to industry reports, this is
                  because the prior rebate advantage to carving out no longer exists and
                  because industry research has found that MCOs manage the pharmacy
                  benefit more efficiently than would otherwise occur in an FFS setting.27

                  METHODOLOGY
                  Data Collection
                  In October 2011, we sent online surveys to the 51 State pharmacy
                  directors. We followed up with nonresponding States in November and
                  December 2011. As of January 2012, we had received responses from
                  50 States.28
                  First, we asked States whether they contracted with Medicaid MCOs to
                  provide medical care to beneficiaries as of October 1, 2011. If they
                  answered yes, we asked them to provide the number of Medicaid
                  beneficiaries in the State, the number enrolled in MCOs, and the number
                  of MCOs that had contracts with the State from the second quarter of
                  2010 until the second quarter of 2011 (i.e., from April 1, 2010, to
                  June 30, 2011). Next, we asked whether the States maintained a carve-out
                  approach, a carve-in approach, or a combination of the both approaches or
                  had changed their payment approach since March 23, 2010 (i.e., switched
                  from a carve-out to a carve-in approach or vice versa).
                  Among responding States, half carved in prescription drugs and half either
                  carved out prescription drugs or did not have MCO contracts. See Table 1
                  for the number of States with different approaches to MCO drug coverage.
                  The survey then asked States different questions based on whether they
                  had MCO contracts and used a carve-in approach, had MCO contracts and
                  used a carve-out approach, or did not have MCO contracts.




                  27
                     For example, see the Lewin Group, Projected Impacts of Adopting a Pharmacy Carve-In
                  Approach Within Medicaid Capitation Programs. Accessed at http://www.mhpa.org on
                  February 17, 2012.
                  28
                     We made multiple attempts to obtain a response from Rhode Island; however, the State did
                  not respond.

Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                                6
                  Table 1: States’ Approaches to Drug Coverage Through Medicaid MCOs
                  From March 23, 2010, to October 1, 2011


                                                                                                    Number of
                    Approach                                                                           States

                    Total States That Paid for Drugs Through MCOs (Carve-In Approach)                       25

                       Maintained only a carve-in approach                                                  16

                       Changed from a carve-out to a carve-in approach                                       3
                                                                                 29
                       Used a combination of carve-out and carve-in approaches                               6

                    Total States With MCOs That Maintained Only a Carve-Out Approach                        10

                    Total States That Did Not Have MCO Contracts                                            15

                  Source: OIG analysis of State survey responses, 2012.

                  Questions for Medicaid MCO States Using a Carve-In Approach. We
                  asked these 25 States to describe the quality and timeliness of the
                  utilization data provided by Medicaid MCOs and any followup action the
                  States took in relation to flaws in these data. We asked States whether
                  they verified (1) the completeness of the utilization data (e.g., that they
                  included utilization for all covered drugs), (2) that the data did not include
                  utilization for drugs paid through the 340B program, and (3) the data’s
                  accuracy.
                  We also asked whether, as of October 1, 2011, States invoiced
                  manufacturers or collected rebates from manufacturers for drugs dispensed
                  through Medicaid MCOs. We asked States that had invoiced
                  manufacturers to describe the invoicing method used (e.g., sent
                  manufacturers one invoice for Medicaid MCO utilization and a separate
                  invoice for FFS utilization), whether they tracked the collection of the
                  amounts invoiced, and whether manufacturers disputed the amounts
                  invoiced.
                  We asked that States provide the dollar amounts invoiced (both
                  retroactively and nonretroactively) and collected from the second quarter
                  of 2010 to the second quarter of 2011. We asked States that had not
                  invoiced manufacturers during this time whether they intended to
                  retroactively invoice. We also asked for the reasons for the delay, an
                  estimated start date, and the method they anticipated using (e.g., send
                  manufacturers one invoice for Medicaid MCO utilization and a separate
                  invoice for FFS utilization).

                  29
                     Six States used a combination of carve-out and carve-in approaches. In general, the drugs
                  that these States carved out include those used to treat HIV/AIDS and depression and other
                  mental health disorders.

Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                                     7
                  Questions for Medicaid MCO States Using a Carve-Out Approach. We
                  asked these 10 States whether they intended to continue this approach now
                  that rebates are available for drugs provided to beneficiaries enrolled in
                  MCOs. If a State intended to no longer carve out, we asked that it
                  describe any plans related to changing its rebate collection process.
                  Questions for States Without Medicaid MCO Contracts. We asked these
                  15 States whether they had plans to change the current structures of their
                  drug programs because of the ACA. We asked these States whether
                  section 2501(c) of the ACA had prompted them to consider such contracts
                  in the future and, if so, to describe their course of action and provide
                  possible implementation dates.30
                  Data Analysis
                  Medicaid MCO Drug Utilization Data. We reviewed the States’ survey
                  responses to determine whether and when Medicaid MCOs provided
                  drug utilization data in the five quarters after March 23, 2010
                  (i.e., second quarter 2010 through second quarter 2011). For this portion
                  of the review, we included 22 of the 25 States that had carved in all or a
                  portion of their prescription drugs since the rebate expansion became
                  effective on March 23, 2010; we excluded the 3 States that had switched
                  from a carve-out to a carve-in approach.31 We calculated the number of
                  States that:
                       	 collected data for all five quarters from every MCO for which they
                          had contracts (collected either within 60 days after the quarter or
                          more than 60 days after the quarter),
                       	 collected data from a portion of their MCOs in at least one of the
                          five quarters, and
                       	 did not collect data from any of their MCOs in all five quarters.
                  States’ Verification of Medicaid MCO Data. We calculated the number
                  of States that verify that the Medicaid MCOs’ drug utilization data:
                  (1) include utilization for all covered outpatient drugs, (2) exclude
                  utilization for drugs paid through the 340B program, and (3) include data
                  that are accurate and correct. We summarized how States perform these
                  verification checks and the reasons why other States decided not to
                  perform them. For this portion of the review, we included the three States


                  30
                     Section 2501(c) of the ACA extended the Medicaid rebate requirements to include drugs 

                  dispensed by MCOs.

                  31
                     These three States did not switch to a carve-in method until mid- to late 2011 (one State 

                  switched in the third quarter and two switched on October 1, 2011). When these States

                  received our survey, there had not been enough time to fully evaluate the timeliness of MCOs’ 

                  data submissions.


Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                                  8
                  that switched from a carve-out to a carve-in approach. Therefore, this
                  portion of the analysis includes 25 States.
                  Invoice and Collection of Rebates for Medicaid MCO Utilization. Of the
                  22 States that have carved in all or a portion of their prescription drugs
                  since the rebate expansion, we identified States that did and did not
                  invoice manufacturers for these rebates as of October 1, 2011.
                  For the States that invoiced manufacturers, we calculated the total rebate
                  amounts collected for each quarter between the second quarter of 2010
                  and the second quarter of 2011. We also calculated the total amount of
                  rebates that were uncollected because of unresolved disputes with
                  manufacturers and determined whether States had methods to track unpaid
                  rebates. Next, we summarized the methods used to invoice manufacturers,
                  calculated the number of States that retroactively invoiced, and calculated
                  the total amount retroactively invoiced. Lastly, we calculated the total
                  amount that States invoiced manufacturers in the first and second quarters
                  of 2011. Because CMS had not provided States with URAs in 2010,
                  States were unable to invoice manufacturers for specific rebate amounts in
                  that year and therefore could not provide invoice totals for 2010.32
                  For the States that did not invoice, we summarized why they had not
                  invoiced, when they intended to start, and the method they planned to use.
                  We also calculated the total number of beneficiaries enrolled in MCOs for
                  these States.
                  States That Carve Out or Do Not Have Medicaid MCO Contracts. We
                  reviewed survey responses for the 25 States that carve out prescription
                  drugs from their Medicaid MCO payments or that did not have MCO
                  contracts. We determined whether the MCO rebate expansion had
                  influenced these States to change their payment policies for prescription
                  drugs.
                  Limitations
                  The findings are based on survey responses provided by State Medicaid
                  agencies. We did not independently verify their accuracy. We also did not
                  attempt to verify the accuracy of the rebate amounts manufacturers paid to
                  the States. The rebate amounts that States invoiced and collected from
                  manufacturers were current at the time we received their responses. If a
                  State invoiced and collected rebates after we received its response, then
                  these rebate amounts would not be reflected in our totals.


                  32
                     For drugs without URAs, CMS instructs States to provide utilization data to manufacturers,
                  which are then responsible for determining the correct URAs to be used in calculating total
                  rebates owed (enabling States to collect these rebates without actually invoicing for specific
                  rebate amounts).

Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                                   9
                  In addition, we reviewed only the rebate collections and rebate processes
                  related to Medicaid MCOs and did not focus on the effect these may have
                  had on the capitation rates States pay to MCOs. We also did not review
                  the effect the rebate expansion may have had on beneficiary services or
                  provider payments.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)              10
                  FINDINGS
                  Eighteen of the twenty-two States using the carve-in
                  approach obtained the Medicaid MCO utilization data
                  needed to collect rebates in all of the quarters under
                  review
                  Among the 22 States that paid for prescription drugs through Medicaid
                  MCOs (i.e., carved in), 18 obtained all the drug utilization data necessary
                  for rebate collection between the second quarter of 2010 and the second
                  quarter of 2011.33 In addition to these 22 States, 3 States (Illinois, New
                  York, and Ohio) switched from a carve-out to a carve-in approach in
                  mid- to late 2011. Because they switched after the second quarter of 2011,
                  we did not include them in this portion of our analysis.
                  Of the remaining four States, one (Nevada) did not collect data in the
                  quarter after the rebate expansion but did so for all its MCOs in all four
                  subsequent quarters. Two additional States (California and West
                  Virginia)34 collected the data from only a portion of their MCOs in each of
                  the five quarters. California estimated that the majority of its MCOs
                  would report the data by December 2011, and West Virginia reported that
                  it would not take action to collect the data until data validation procedures
                  were in place. The District of Columbia was the only State that never
                  collected any of the utilization data needed from its MCOs to invoice
                  manufacturers in all of the five quarters. It did not project a date when it
                  would collect the data.35
                  States must include data about each drug’s utilization on the rebate
                  invoices they send to manufacturers within 60 days after a quarter ends,
                  meaning that the timely collection of MCOs’ data is imperative for the
                  completeness of these invoices. As shown in Table 2, the majority of
                  States that collected utilization data generally received it from MCOs
                  within 60 days after the quarter’s end. None of the States (including those
                  that never collected utilization data) took action to encourage timelier




                  33
                     One of the 18 States, Mississippi, did not contract with MCOs in 2010 and therefore did not
                  need to collect utilization data in that year. However, Mississippi collected utilization data
                  from all its MCOs in 2011.
                  34
                     California and West Virginia use a combination of carve-in and carve-out approaches.
                  35
                     However, the District of Columbia estimated that it would begin invoicing for these rebates
                  in the first quarter of 2012. To do so, it would first need to collect utilization data from its
                  MCOs.

Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                                   11
                       submission from MCOs. 36 See Appendix A for a State-by-State depiction
                       of when MCOs provided utilization data in the second quarter of 2011.
 Table 2: Collection of Drug Utilization Data: Characteristics of States Using the Carve-In
 Approach


                                                                      Second           Third        Fourth         First    Second
                                                                      Quarter        Quarter       Quarter       Quarter    Quarter
  Data Collected                                                        2010           2010           2010         2011       2011

  Collected All Data From MCOs                                              17*           18*            18*           19       19

     All data collected within 60 days                                       11            13             14           15       16

     All data collected more than 60 days after the                           3              2             2           1         1
     quarter
                                                                              3              3             2           3         2
     Some data collected within and some data more
     than 60 days after the quarter

  Collected Data From Portion of MCOs                                         2              2             2           2         2

  Did Not Collect Data From Any MCOs                                          2              1             1           1         1

     Total Number of States                                                  21            21             21           22       22

 Source: OIG analysis of State survey responses, 2012.
 * Mississippi did not contract with MCOs in 2010. Therefore, the total number of States in the 2010 quarters is 21.




                       All but one State using a carve-in approach performed at least
                       some type of verification check on the Medicaid MCOs’
                       utilization data
                       Among the 25 States that used a carve-in approach by the end of 2011, the
                       District of Columbia had not implemented any checks to verify Medicaid
                       MCOs’ utilization data because it had not yet collected any data. The
                       21 States that had collected data and the 3 States that recently switched
                       from a carve-out to a carve-in approach reported having methods to ensure
                       that the utilization data (1) were complete, (2) did not include 340B
                       utilization, or (3) were accurate. In addition, States that followed up with
                       MCOs about the data thought that MCOs were readily available and
                       helpful with answering their questions.
                       Eighteen of Twenty-Five States Verified That the MCO Data Are Complete.
                       These 18 States reported that they verified that the data included
                       utilization for all covered drugs by performing checks, such as requiring
                       the MCO to certify the data, comparing the data to other sources
                       (e.g., financial statements), or validating the data through a series of edits.
                       For example, one of the verification checks Pennsylvania performed

                       36
                         We did not ask about specific actions taken. Instead, States were generally asked to
                       describe any action taken if the MCO did not provide the utilization data in a timely manner.

Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                                                      12
                  included running queries that target missing or questionable data from
                  MCOs. These queries have helped the State identify a lower-than-
                  expected submission of claims for certain drug groups, which the State
                  then addressed with the MCOs.
                  Among the seven States that did not verify the completeness of the data,
                  four are in the process of implementing these checks and the other three
                  did not mention having data-verification plans (although one mentioned
                  that the MCO’s agreement with the State requires it to provide complete
                  data).37 All of these States, except the District of Columbia, performed at
                  least one of the other two data verification checks we specifically asked
                  about in our survey (i.e., that the data exclude 340B utilization and that the
                  data are correct).
                  Twenty-One of Twenty-Five States Verified That the MCO Data Exclude
                  340B Utilization. To verify that the MCO drug utilization data excluded
                  340B utilization, these States either requested that the MCOs include a
                  340B-entity indicator on the claims or matched the utilization data to a
                  database identifying 340B entities and then removed the 340B entities’
                  utilization from the MCO data.38, 39
                  Twenty-Three of Twenty-Five States Verified That the MCO Data Are
                  Accurate. The primary tools these States used to verify that the data are
                  accurate are claim edits and audit reports.40, 41 For example, New York
                  completes a series of control and validation edits when a claim is first
                  processed and then produces reports to verify the accuracy of the data
                  submission once the claim is paid. The State uses these reports to
                  follow up with the MCOs when necessary. New Jersey created an
                  encounter-monitoring unit whose responsibility is to perform quality
                  control checks of the data submitted by MCOs.




                  37
                     The seven States are California, the District of Columbia, Florida, Kansas, Massachusetts, 

                  New Jersey, and South Carolina. 

                  38
                     States are prohibited from collecting rebates on drugs purchased under the 340B program. 

                  Section 340B of the Public Health Service Act requires States to establish a mechanism to

                  exclude 340B-purchased drugs from Medicaid rebate requests to prevent subjecting 

                  manufacturers to duplicate discounts. 42 U.S.C. § 256b(a)(5).

                  39
                     The four States that did not have a 340B check are the District of Columbia, New Jersey, 

                  Ohio, and West Virginia.

                  40
                     In addition to the District of Columbia, Ohio reported that it does not verify the accuracy of 

                  the MCO data. However, Ohio reported that it employs several methods to monitor data 

                  quality.

                  41
                     Although New Mexico reported that it verified that data were accurate, it was unsure of 

                  how it verified this information.


Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                                     13
                       In the five quarters after the rebate expansion, 12 of
                       the 22 States using the carve-in approach invoiced
                       manufacturers and collected $1.6 billion in rebates for
                       Medicaid MCO drug utilization
                       At the time of our survey, 12 of the 22 States using the carve-in approach
                       invoiced manufacturers and collected $1.6 billion in rebates for Medicaid
                       MCO utilization for the second quarter of 2010 through the second quarter
                       of 2011.42, 43 This amount will likely grow because three of these States
                       reported that they were waiting for additional rebate payments from prior
                       quarters at the time of our request. These 12 States had a total of
                       8.8 million beneficiaries enrolled in MCOs at the time of our survey.44
                       See Table 3 for the amount of rebates collected in each quarter and
                       Appendix B for a list of the 12 States that invoiced manufacturers and the
                       total amount of rebates collected by each State.
Table 3: Amounts That 12 States Invoiced and Collected Between Second Quarter 2010
and Second Quarter 2011 for Medicaid MCO Rebates

  Rebate Quarter                                   Amount Invoiced             Amount Retroactively              Amount Collected
                                                                                            Invoiced

  Second quarter 2010                      State did not have URAs;                      $116 million                    $273 million
                                            manufacturer calculated
                                                    invoice amounts

  Third quarter 2010                       State did not have URAs;                      $101 million                    $317 million
                                            manufacturer calculated
                                                    invoice amounts

  Fourth quarter 2010                      State did not have URAs;                      $110 million                    $278 million
                                            manufacturer calculated
                                                    invoice amounts

  First quarter 2011                                      $390 million*                   $40 million                    $413 million

  Second quarter 2011                                     $396 million*                   $39 million                    $337 million

     Total                                  Cannot determine total                      $406 million                   $1.6 billion**

Source: OIG analysis of State survey responses, 2012.
* Massachusetts was unable to determine the amounts invoiced for MCO rebates; therefore, these amounts are not included in first and 

second quarter 2011 invoice totals. 

** Three States reported that they expect to collect additional rebate payments. 





                       42
                          Although the rebate expansion was effective on March 23, 2010, we asked States to provide
                       rebate data for the first full quarter (i.e., second-quarter 2010) after that date.
                       43
                          Illinois, New York, and Ohio were excluded from this count because they had switched
                       from a carve-out to a carve-in approach (Illinois on July 1 and New York and Ohio on
                       October 1, 2011). Typically, States invoice manufacturers for rebates 60 days after the close
                       of a quarter, meaning that not enough time had passed to enable these States to invoice the
                       manufacturers when they completed our survey.
                       44
                          Enrollment figures were approximations provided by each State in late 2011.

Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                                                         14
                  As previously mentioned, States could not provide the URAs or exact
                  dollar amounts on the rebate invoices sent to manufacturers in 2010.45
                  Instead, States provided manufacturers with the drugs’ utilization data and
                  relied on them to calculate and pay the amounts of rebates owed for each
                  quarter in 2010. In the first and second quarters of 2011, the 12 States had
                  invoiced manufacturers for $390 million and $396 million, respectively.
                  In addition, 10 of the 12 States retroactively invoiced manufacturers
                  $406 million in rebates for the second quarter of 2010 through the second
                  quarter of 2011. Retroactive invoices for utilization in 2010 averaged
                  $109 million per quarter, but dropped in the first half of 2011 to an
                  average of $40 million per quarter (when CMS resumed providing URAs).
                  The majority of the 12 States invoiced manufacturers by sending 1 invoice
                  for the MCO data and a separate invoice for the FFS data (10 States). Of
                  the remaining two States, one sent manufacturers individual invoices for
                  each of its four MCOs and a separate invoice for FFS data (a total of five
                  separate invoices) and the other sent one invoice that combined all MCO
                  and FFS data.
                  Additionally, all 12 States reported that they have processes to ensure that
                  manufacturers pay the rebate amounts owed for MCO drug utilization.
                  The process States used to collect unpaid invoiced amounts that were not
                  disputed ranged from sending out prior period adjustments with the
                  subsequent quarter’s invoice to taking a multistep approach to collecting
                  the payments. For example, Massachusetts sends collection notices,
                  produces a report identifying manufacturers with amounts past due, and
                  provides details of past due amounts on the quarterly invoices.
                  Eleven of the twelve States had $33 million in rebates that
                  were uncollected at the time of our survey because of
                  unresolved disputes with manufacturers
                  The 11 States reported that the disputes with manufacturers involved
                  potentially incorrect claim information provided by the Medicaid MCOs
                  (e.g., invalid drug codes, incorrect units of measure, incorrect quantities
                  listed on the claim), provider reimbursement issues, and manufacturer
                  requests for more details about information on the invoices.
                  Pennsylvania46 and Georgia accounted for the majority (70 percent) of the




                  45
                     Two of the 12 States reported amounts invoiced in 2010 that were not retroactive.
                  46
                     Pennsylvania included unpaid invoices in its total amount of dollars not collected because
                  of unresolved disputes.

Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                                  15
                  $33 million in rebates that were uncollected because of unresolved
                  disputes with manufacturers.47, 48

                  As of October 1, 2011, 10 of the 22 States using a
                  carve-in approach had not invoiced manufacturers
                  and collected rebates for Medicaid MCO drug
                  utilization
                  Ten of the twenty-two States49 that carved in prescription drugs did not
                  invoice and collect rebates for Medicaid MCO utilization as of
                  October 1, 2011. Combined, these 10 States have 8.3 million Medicaid
                  beneficiaries enrolled in MCOs, which is comparable to the enrollment of
                  the 12 States that have invoiced and collected rebates for MCO drug
                  utilization.50 See Appendix C for a list of the 10 States that did not invoice
                  manufacturers and collect rebates.
                  Nine of the ten States reported that they intended to begin invoicing
                  manufacturers in the fourth quarter of 2011 or the first quarter of 2012,
                  with just one State planning to do so by the end of 2012 (approximately
                  2 years after the MCO rebate expansion was enacted). 51 However, all of
                  the 10 States that had not sent rebate invoices to manufacturers planned to
                  make invoice amounts retroactive, in most cases back to March 23, 2010,
                  when the related ACA provision became effective.
                  Seven of the ten noninvoicing States had collected all the drug
                  utilization data needed to invoice manufacturers from all their
                  Medicaid MCOs
                  Seven of the ten noninvoicing States had collected all the drug utilization
                  data necessary to invoice manufacturers for rebates. According to these
                  seven States, they had not invoiced because they had to complete
                  programming changes to the systems that process MCO claims and



                  47
                    CMS had developed and implemented the Medicaid Drug Rebate Dispute Resolution
                  program to address the problem of unpaid and disputed drug rebates.
                  48
                       Massachusetts reported that manufacturers did not owe money for unresolved disputes.
                  49
                     Illinois, New York, and Ohio were excluded from this count because they had switched
                  from a carve-out to a carve-in approach (Illinois on July 1 and New York and Ohio on
                  October 1, 2011). Typically, States invoice manufacturers for rebates 60 days after the close
                  of a quarter, meaning that not enough time had passed to enable these States to invoice the
                  manufacturers when they completed our survey.
                  50
                     Enrollment figures were approximations provided by each State in late 2011.
                  51
                     When these 10 States invoice manufacturers, 7 plan to send one invoice for MCO data and
                  another for FFS data, 2 plan to send individual invoices for each MCO’s data and another for
                  FFS data, and 1 plans to send a single invoice that combines data for all 5 of its MCOs with
                  the FFS data.


Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                                  16
                  invoice manufacturers for these claims, were still receiving claims data, or
                  had to finalize contractual changes with the States’ rebate contractors.
                  Two States (California and West Virginia) that had not collected all
                  utilization data from their MCOs52 were waiting to invoice manufacturers
                  for rebates after programming changes to accommodate the new invoicing
                  process were complete. The District of Columbia could not invoice
                  manufacturers because it had not collected any utilization data from its
                  MCOs.

                  Five States that did not pay for drugs through
                  Medicaid MCOs changed the structures of their drug
                  programs as a result of the rebate expansion
                  The ACA rebate expansion does not directly affect States that carve out
                  prescription drugs or that do not contract with Medicaid MCOs. However,
                  this rebate expansion prompted three States to switch from a carve-out
                  approach to a carve-in approach in mid- to late 2011. According to these
                  States, switching to a carve-in approach creates efficiencies by allowing
                  them to consolidate care within an MCO and to take advantage of the new
                  rebate inclusion. In addition, 2 of the 10 States that carved out
                  prescription drugs at the time of our survey (Texas and Utah) reported that
                  they have filed legislative changes to carve in at least a portion of their
                  MCO utilization as a result of the rebate expansion. The expected
                  implementation date for Texas was March 2012 and for Utah was July
                  2012.53
                  As of October 1, 2011, 15 States did not contract with MCOs to provide
                  medical care to beneficiaries. The inclusion of MCOs in the rebate
                  agreement has not prompted any of these States to consider contracting
                  with MCOs.




                  52
                     Four States (California, the District of Columbia, Nevada, and West Virginia) did not
                  collect all the quarterly drug utilization data from their MCOs. Of these States, only Nevada
                  invoiced manufacturers using the drug utilization data it had collected from its MCOs.
                  53
                     According to its survey response, Utah filed a waiver to carve in some prescription drugs
                  and was waiting for its approval at the time of our survey.

Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                                  17
                  CONCLUSION AND RECOMMENDATION
                  Effective March 23, 2010, section 2501(c) of the ACA expanded the
                  Medicaid rebate requirements to include drugs dispensed to beneficiaries
                  by a Medicaid MCO. As a result, States contracting with MCOs that carve
                  prescription drugs into the MCOs’ fixed payments are now required to
                  collect rebates. The rebate expansion has the potential to provide these
                  States with a significant source of additional funds. This is evident in the
                  fact that the 12 States that collected these rebates received $1.6 billion
                  collectively for just over 1 year’s utilization. However, not all eligible
                  States had invoiced manufacturers for these rebates—money that these
                  States are clearly entitled to collect.
                  In addition, the Federal Government is potentially losing a significant
                  source of funds as a result of States’ not collecting MCO rebates. Section
                  2501 of the ACA increased the rebate amounts manufacturers pay and
                  required manufacturers to remit the entire portion of this increase to the
                  Federal Government. However, the Federal Government is unable to
                  obtain these dollars if the States do not collect rebates.
                  Therefore, we recommend that CMS:
                  Follow Up With the 10 States That Had Not Collected Rebates
                  for Drugs Dispensed to Medicaid MCO Beneficiaries and Take
                  Action To Enforce Rebate Collection If Necessary
                  Even though nearly 2 years had passed since the March 23, 2010, rebate
                  expansion went into effect, 10 States were not meeting the ACA’s
                  requirement to invoice and collect rebates from manufacturers for drugs
                  dispensed to MCO beneficiaries. At a time when many States are facing
                  financial difficulties, this new requirement enables them to pursue the
                  collection of these additional rebates and further reduce Medicaid
                  spending on prescription drugs. Furthermore, all but one State had
                  obtained at least a portion of the MCO utilization data necessary for
                  invoicing. Therefore, the factors that hinder rebate invoicing are mostly
                  within the States’ control.
                  Responses from these 10 States indicated that they intended to invoice
                  manufacturers for drugs dispensed to MCO beneficiaries, generally
                  starting in early 2012. CMS should follow up with these 10 States to
                  verify that they have begun to invoice manufacturers and collect these
                  rebates. CMS should also verify that States are invoicing manufacturers
                  retroactively to the effective date of this provision (i.e., March 23, 2010).
                  During its followup, if CMS finds that any of these 10 States have not sent
                  invoices for the entire period since the rebate expansion, it should enforce
                  the rebate collection requirements. CMS could consider denying Federal

Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                  18
                  matching funds to these States until they comply with the ACA rebate
                  requirements.




Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)             19
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with our recommendation. CMS noted that it has
                  continuously undertaken such actions for all States. In regard to the
                  10 States we had identified as not collecting rebates for drugs dispensed to
                  Medicaid MCO beneficiaries, CMS conducted further followup and found
                  that 2 had taken steps that indicate they are now collecting these rebates.
                  CMS believes the remaining eight States will come into compliance, thereby
                  negating the need for enforcement actions.
                  We did not make any changes to the report based on CMS’s comments. For
                  the full text of CMS’s comments, see Appendix D.




Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)              20
                                 APPENDIX A

Percentage of Medicaid Managed Care Organizations That Provided Drug Utilization Data to
States for the Second Quarter of 2011

                                                                                                            Percentage That
                                               Number of Medicaid               Percentage That          Provided Data More               Percentage That
                                                 MCOs* in Second                  Provided Data           Than 60 Days After              Did Not Provide
    State                                           Quarter 2011                 Within 60 Days                  the Quarter                         Data
    Arizona                                                          21                       100%                                -                       -
                                                                                                                                                        1
    California                                                       29                        17%                                -                 83%
    District of Columbia                                              3                            -                              -                 100%
    Florida                                                          25                       100%                                -                       -
    Georgia                                                           3                       100%                                -                       -
    Hawaii                                                            5                            -                       100%                           -
    Kansas                                                            2                       100%                                -                       -
    Kentucky                                                          1                       100%                                -                       -
    Maryland                                                          7                       100%                                -                       -
    Massachusetts                                                     5                       100%                                -                       -
    Michigan                                                         14                       100%                              -                         -
                                                                                                                                  2
    Minnesota                                                         8                        88%                          13%                           -
    Mississippi                                                       2                       100%                                -                       -
    Nevada                                                            2                       100%                                -                       -
    New Jersey                                                        4                       100%                                -                       -
    New Mexico                                                        7                       100%                                -                       -
    Oregon                                                           15                       100%                                -                       -
    Pennsylvania                                                      7                       100%                                -                       -
    South Carolina                                                    4                       100%                                -                       -
    Virginia                                                          5                       100%                                -                       -
    Washington                                                        7                        86%                          14%                           -
                                                                                                                                                        3
    West Virginia                                                     3                            -                        33%                     67%
Source: Office of Inspector General analysis of State survey responses, 2012.
* Managed care organizations. 

1
    California estimated that 53 percent of the Medicaid population was covered by the MCOs that did not provide the utilization data.

2
    Totals do not add to 100 percent because of rounding.

3
    West Virginia estimated that 50 percent of the Medicaid population was covered by the MCOs that did not provide the utilization data. 





          Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                                                            21
                             APPENDIX B

Total Amount of Medicaid Managed Care Organization Rebates That 12 States Using a
Carve-In Approach Collected From Second Quarter 2010 to Second Quarter 2011


                                                                                                                           Total MCO Rebates
                                                                                                                   Collected Between Second
                                      Approach to Prescription Drug             Population Enrolled in              Quarter 2010 and Second
    State                               Payment in Medicaid MCOs*                              MCOs                              Quarter 2011
    Arizona                                                       Carve-in                       1,255,500                          $304,922,162
    Georgia                                                       Carve-in                       1,118,978                          $126,146,641
    Kentucky                                                      Carve-in                         115,000                            $56,500,258
                                         Combination of carve-out and
    Maryland                                                 carve-in                              747,000                          $116,987,931
    Massachusetts                                                 Carve-in                         487,180                            $87,195,855
                                         Combination of carve-out and
    Michigan                                                 carve-in                            1,300,000                          $160,529,095
                                                                                                                                                    1
    Minnesota                                                     Carve-in                         400,000                                     $0
                                                                                                            2
    Nevada                                                        Carve-in                        260,000                             $12,203,599
                                         Combination of carve-out and
    New Jersey                                               carve-in                            1,004,000                            $62,796,646
                                         Combination of carve-out and
    Oregon                                                   carve-in                              503,000                            $35,227,390
    Pennsylvania                                                  Carve-in                       1,200,000                          $590,541,831
    South Carolina                                                Carve-in                         442,000                            $64,252,200
        Total                                                                                    8,832,658                        $1,617,303,608
Source: Office of Inspector General analysis of State survey responses, 2012. 

Note: Rebate collection figures were current at the time the States responded to our survey (i.e., late 2011 until January 2012). 

* Managed care organizations. 

1
    At the time of our survey, Minnesota had collected $1.1 million in rebates for the week following March 23, 2010, but had not collected

rebates for second quarter 2010 and subsequent quarters. However, when we followed up with the States for clarification in January 2012, 

Minnesota had collected an additional $800,000 for the week following March 23, 2010, and $18 million for the second quarter of 2010. 

2
    Nevada did not provide its population enrolled in MCOs. We obtained the 2009 population figure (the most recent available) from 

http://www.Medicaid.gov on February 10, 2012.





     Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                                                              22
                  APPENDIX C

                  Ten States Using a Carve-In Approach That Had Not Invoiced or Collected
                  Medicaid Managed Care Organization Rebates as of October 1, 2011



                                                                Approach to Prescription Drug
                    State                                                            Payment          Population Enrolled
                    California                            Combination of carve-out and carve-in                 4,008,547
                    District of Columbia                                                   Carve-in              145,000
                    Florida                                                                Carve-in             1,800,000
                    Hawaii                                                                 Carve-in              283,000
                    Kansas                                                                 Carve-in              231,506
                    Mississippi                                                            Carve-in               51,500
                    New Mexico                                                             Carve-in              370,000
                    Virginia                                                               Carve-in              530,000
                    Washington                                                             Carve-in              685,000
                    West Virginia                         Combination of carve-out and carve-in                  166,373
                       Total                                                                                    8,270,926
                   Source: Office of Inspector General analysis of State survey responses, 2012.




Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                                          23
                  APPENDIX D
                  Agency Comments




Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)   24
Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)   25
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and David E. Tawes, Regional Inspector General in the
                  Baltimore regional office.
                  Stephanie Yeager served as the team leader for this study. Other Office of
                  Evaluation and Inspections staff from the Philadelphia regional office who
                  conducted the study include Eric Merron. Central office staff who
                  provided support include Tasha Trusty, Kevin Manley, and Debra Roush.




Collection of Rebates for Drugs Paid Through Medicaid MCOs (OEI-03-11-00480)                 26
                Office of Inspector General

                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
